INDEX TO APPENDIX
Sequential No.
In Document
Appendix numbers at top of page
Appendix A: 3/3/21 “final” decision by the Ninth
Circuit which denied Kinney’s petitions for
rehearings in his CWA appeal [NC Dk #62] . . . 1
Appendix B: 11/16/20 dismissal order by the Ninth
Circuit for Kinney’s pending appeal of his CWA
citizen’s lawsuit [NC Dk #57-1]
3
Appendix C: 1947 aerial photo showing road
grading in Three Arch Bay and “white” fill
(grading spoils) dumped into the steep ravine
above Kinney’s location [USDC Dk #138-2] .... 7
Appendix D: 1964 aerial photo showing more road
grading in Three Arch Bay and several areas of
new fill (spoils) dumped into the steep ravine
above Kinney’s location [USDC Dk #138-3] .... 9
Appendix E: 3 photos showing the muddy storm
water runoff coming down the hill from CSD, onto
Kinney’s land, and flooding CalTrans’ South Coast
Highway where the City’s primary storm water
drain (to the ocean) is located [NC Dk #61] .... 11
Appendix F: photo of the exact location in Laguna
Beach where muddy storm water runoff comes out
from the City’s primary storm water drain and
goes into the ocean [at the red “X” mark] .... 12

1

APPENDIX A
Case: 18-56550

03/03/2021

DktEntry: 62

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHARLES G. KINNEY
Plaintiff-Appellant,
v.

No. 18-56550
D.C. No. 8:17-cv-01693-RGK-JC
Central District of California
Santa Ana (sic)

THEE ARCH BAY COMMUNITY SERVICES
DISTRICT; et al„
Defendants-Appellees.
FILED
MAR 3 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
ORDER
Before: THOMAS, Chief Judge, TASHIMA and W.
FLETCHER, Circuit Judges.
The panel has voted to deny the petition for
panel rehearing.
The full court has been advised of the
petition for rehearing en banc and no judge has
requested a vote on whether to rehear the matter
en banc. See Fed. R. App. P. 35.

2

Kinney’s petition for panel rehearing and
petition~for "rehearing en banc (DockeF~Entry No7
61) are denied.
Non-party
Lukashin’s
request
publication (Docket Entry No. 59) is denied.

for

No further filings will be entertained in this
closed case.

3

APPENDIX B
Case: 18-56550

11/16/2020

DktEntry: 57-1

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHARLES G. KINNEY
Plaintiff-Appellant,
v.

No. 18-56550
D.C. No. 8:17-cv-01693-RGK-JC
Central District of California

THEE ARCH BAY COMMUNITY SERVICES
DISTRICT; et al„
Defendants-Appellees.
FILED
NOV 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
MEMORANDUM *
Appeal from the United States District Court for
the Central District of California R. Gary
Klausner, District Judge, Presiding
Submitted November 9, 2020**
Before: THOMAS, Chief Judge, TASHIMA and W.
FLETCHER, Circuit Judges.
Charles G. Kinney appeals pro se from the
district court’s judgment dismissing his action

4

alleging violations of the Clean Water Act
(“CWA”), 33 UtS.G. §—lr365. We-have jurisdictionunder 28 U.S.C. § 1291. We review de novo a
dismissal for lack of subject matter jurisdiction
under the CWA. Wash. Trout v. McCain Foods,
Inc., 45 F.3d 1351, 1353 (9th Cir. 1995) (dismissal
for lack of subject matter jurisdiction under the
CWA). We may affirm on any basis supported by
the record. Thompson v. Paul, 547 F.3d 1055,
1058-59 (9th Cir. 2008). We affirm.
The district court properly dismissed for
lack of subject matter jurisdiction Kinney’s claims
in the first amended complaint against defendants
Three Arch Bay Community Services District,
Three Arch Bay Association, City of Laguna
Beach,
and
California
Department
of
Transportation. Dismissal of Kinney’s claims in
the complaint against defendants Viviani, John
Chaldu, and Lynn Chaldu was also proper
because Kinney failed to provide defendants with
adequate notice of the alleged CWA violations.
See 40 C.F.R. § 135.3 (notice under CWA must
provide sufficient information to permit recipient
to identify violation); Wash. Trout, 45 F.3d at
1354-55 (affirming dismissal of CWA action for
lack of subject matter jurisdiction where notice
was “insufficient as required by the regulations
promulgated under the CWA”).
The district court did not abuse its
discretion by dismissing the first amended
complaint without leave to amend because
amendment would have been futile. See
Cervantes v. Countrywide Home Loans, Inc., 656

5

F.3d 1034, 1041 (9th Cir. 2011) (setting forth
without leave to amend is proper when
amendment would be futile). The district court did
not abuse its discretion by declaring Kinney a
vexatious litigant and entering a pre-filing review
order against him because all of the requirements
for entering a pre-filing review order were met.
See Ringgold Lockhart v. County of Los Angeles,
761 F.3d 1057, 1062 (9th Cir. 2014) (setting forth
requirements for pre-filing review orders).
The district court did not abuse its
discretion by transferring the case to Judge
Klausner in the Western Division of the U.S.
District Court for the Central District of
California. See 28 U.S.C. § 1404(b) (intradistrict
transfer between divisions is within the discretion
of the district court); Jones v. GNC Franchising,
Inc., 211 F.3d 495, 498 (9th Cir. 2000) (standard
of review). \
We do not consider matters not specifically
and distinctly raised and argued in the opening
brief, or arguments and allegations raised for the
first time on appeal. See Padgett v. Wright, 587
F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.
* This disposition is not appropriate for
publication and is not precedent except as
provided by Ninth Circuit Rule 36-3.

6

** The panel unanimously concludes this case is
suitaMe-for“decision~without-orai~argument—See'
Fed. R. App. P. 34(a)(2). Kinney’s request for oral
argument, set forth in the opening brief, is denied.

Case 8:17-cv-01693-RGK-JC Document 138*2 Filed 08/02/18 Page 1 of 2 PagelD#:2436

o

;

o

</>

CP

CD

??
M

C'f

O

o
o

<£>

X

o

i

FAIRCHILD AERIAL
PHOTOGRAPHY
COLLECTION
Whittier College
Whittier, CA 90608
(562) 907-4220
Right
Frame

C-11730

Date_

8/28/1947

Scale _

r=230‘

o
O

O
C

l

3
re
w

<P
M

8:6

2
Q. fcfi*

Contact Print
Enlargement 2.6x
Other____________________________
Invoice Number
41130

s8

Completed___

00

4/11/06

This serial photograph is not to be copied,
reproduced, published, or syndicated without
the authorization of the Fairchild Aenat
Photography Collection at Whittier College.

to

5

(O
(D

ro
•v

aro
(Q

fD

6

*

to

U>

s'•

*

/

/

7
Case 8:17-cv-01693-RGK-JC Document 138-3 Filed 08/02/18 Page 1 of 2 Page ID#:2438

»

o
8a>
9?
c ^

o
O

O)
<£>
73

a
7*
FAIRCHILD AERIAL
PHOTOGRAPHY
COLLECnOfT*
Whittier College
Whittier, CA 90608
(562) 907-4220

o

o
c

3
ro

Flight

C-24733

co

Frame

U

Date

1:82
3/14/1964

Scale

1"=315'

1

Contact Print
Enlargement 3.8x
Other______________
Invoice Number
Completed___

41130
4/11/06

Thu aerial photograph is not to be copied,
reproduced, published, or syndicated without
the authorization o( the Fairchild Aerial
Photography Collection at Whittier College.

g.
8
O
ro

00

T3
to
ro
N>

(O

a

ro

3

V

<Q

0)

6
*
CO

to

*

.Case;48-56550,41/30/202Q,JD„t1909478. DktEntry;,61, Page 20 of 21

:
LACUNA BEACH FLOODING
(To*> toGoaam
I. Uapennittetf
TA B
rmaS drafa ftomiTA
2J2IJ2-32IJ4 VirsinaU'k)-

J.SashCoon

tosptal

<*•> »

>

16

;

/it44

!
c

Iffl

>Tf€?T3ER 2020 » LAGUNABEACHMACA2INE.COM

s

\
feaak.' 5<®r* jm*

« *«>
/

}

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page lot 10 PagelD#:2476

UNITED STATES DISTRICT COURT
GENT-RAL-DISTRIGT-OF-CALIFORNIA
CIVIL MINUTES - GENERAL

1

Case No. ; 8:17-cv-01693-RGK-JC

JS-6

I
| Date : August 30, 2018

Kinney v. Three Arch Bay Community Services District et al.

Title

nr

[ Present: The Honorable R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE
Sharon L. Williams

Not Reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiff:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

I.

(IN CHAMBERS) Order Re: Defendant Three Arch Bay’s Motion for
Summary Judgment (DE 128); Defendant Charles Viviani’s Motion for
Security and Control (DE 15)

INTRODUCTION

On September 28, 2017, plaintiff Charles Kinney (“Kinney”) filed a complaint against
Defendants Three Arch Bay Community Services District (“TAB”), Charles Viviani (“Viviani”), John
and Lynn Chaldu (collectively, the “Chaldus”), and Does 1-10. Kinney later added the City of Laguna
Beach (the “City”), the Three Arch Bay Association (“TABA”), and the California Department of
Transportation (“Caltrans”) as defendants in this action. Kinney alleges three claims against the
defendants: (1) violation of the Clean Water Act (the “CWA”) for discharging pollutants without a
permit; (2) violation of the applicable permit; and (3) declaratory relie'f seeking a determination of the
parties’ rights and duties with respect to the CWA.
On January 5, 2018, the Court dismissed Kinney’s claims against Viviani and the Chaldus. The
Court has also now dismissed Kinney’s claims against Caltrans and the City for failure to comply with
the CWA’s notice requirement.
Now before the Court is TAB’S Motion for Summary Judgment and Viviani’s Motion for
Security and Control (DE 15, DE 128). For the following reasons, the Court GRANTS Viviani’s Motion
for Security and Control (DE 15). The Court also DISMISSES this case for lack of subject matter
jurisdiction so DENIES AS MOOT TAB Motion for Summary Judgment (DE 128).
II.

FACTUAL BACKGROUND
In the FAC, Kinney alleges the following:

Kinney owns a duplex on Virginia Way in Laguna Beach, California. His property sits below
Three Arch Bay, a subdivision managed by TAB or TABA, and across the street from properties owned
by Viviani and the Chaldus.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 2 of 10 PagelD#:2477
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Date

Case No.

8:17-cv-01693-RGK-JC

Title

Kinney v. Three Arch Bay Community Services District et al.

August 30, 2018

Over the last 16 years, TAB has discharged pollutants along with storm water runoff from lands
under its control. More severe during rainstorms, the pollutants travel through Kinney’s property, across
his neighbors’ properties, across the Caltrans-controlled Pacific Coast Highway, into the City’s drainage
system, and eventually into the Pacific Ocean.
Kinney alleges that the defendants have violated the Clean Water Act by discharging pollutants
into the ocean either without or in violation of a National Pollutant Discharge Elimination System
(“NPDES”) permit. He requests damages as well as civil penalties and declaratory and injunctive relief.
III.

MOTION FOR SUMMARY JUDGMENT
A.

Judicial Standard: Subject Matter Jurisdiction

Dismissal is appropriate under Federal Rule of Civil Procedure 12(b)(1) where a court lacks
subject matter jurisdiction over the plaintiffs claims. Fed. R. Civ. P. 12(b)(1). The burden of
demonstrating subject matter jurisdiction rests on the party asserting jurisdiction. Kokkonen v. Guardian
Life Ins. Co. ofAm., 511 U.S. 375, 377 (1994).
B.

Discussion

TAB argues that the Court does not have subject matter jurisdiction over Kinney’s claims against
TAB due to a defective Sixty-Day Notice of Intent to File Suit. The Court agrees.
The CWA prohibits the discharge of pollutants into navigable waterways except as authorized by
the statute, and allows a citizen to bring a private suit against alleged violators. A citizen who wishes to
bring an action under the CWA must first comply with the statute’s sixty-day notice requirement. 33
U.S.C. § 1365(b)(1)(A). The notice must alert the violator of the “alleged violation,” the “specific
standard, limitation, or order” at issue, the activity that constitutes the violation, the persons responsible,
and the dates. 40 C.F.R. § 135.3(a).
If a plaintiff does not meet the statute’s requirements for notice, the action must be dismissed for
lack of jurisdiction. Wash. Trout v. McCain Foods, 45 F.3d 1351, 1354 (9th Cir. 1995) (citing Hallstrom
v. Tillamook Cty., 493 U.S. 20, 33 (1989)). The notice requirement is “strictly construed,” and merely
giving notice is not enough if the requirements set forth in the regulation are not satisfied. Id.
Here, Kinney’s Sixty-Day Notice is deficient because the notice fails to identify the “specific
standard, limitation, or order” that TAB allegedly violated. 40 C.F.R. § 135.3(a). Kinney’s notice states
that “over the last five years,” the “initial acts” of TABA and/or TAB have resulted in the discharge of
mud, silt, and other pollutants into the ocean. (See Notice, ECF No. 114-2, at 2.) It also states that the
“polluted discharges collected and directed by TABA and/or [TAB] that go into the ocean occur during
storm events, on the day(s) after a storm event(s), and/or during non-storm events.” Id. at 3. The notice
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 3 of 10 PagelD#:2478

UNITED STATES DISTRICT COURT
CENTRAL.DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL

F

j Case No.

8:17-cv-01693-RGK-JC

Date ; August 30, 2018

!. Title..........

Kinney v. Three Arch Bay Community Services District et al.

further states that TABA and/or TAB “at various times” engage in construction projects and use goats
for fire control, which result in pollutant discharge into the ocean. Id. at 5. But Kinney’s notice does not
identify any “specific standard, limitation or order” that TAB is alleged to have violated. 40 C.F.R. §
135.3(a).
Kinney does not appear to dispute this. Instead, he argues that because TAB has no NPDES
permit, he need not identify the narrative and/or numeric standards that TAB violated. (Pl.’s Opp’n
2:13-15, ECF No. 135.) The CWA’s notice requirement, however, is “strictly construed.” Wash. Trout,
45 F.3d at 1354. The notice must identify “sufficient information to permit the recipient to identify the
alleged violations and bring itself into compliance.” S.F. BayKeeper, Inc. v. Tosco Corp., 309 F.3d
1153, 1157-58 (9th Cir. 2002) (citation omitted). Here, Kinney’s notice fails to identify the specific
effluent standard or standards that TAB allegedly violated, so TAB did not have sufficient information
to identify the violation or bring itself into compliance. See id. Accordingly, Kinney’s Sixty-Day Notice
is deficient. The Court therefore must dismiss his claims against TAB for lack of subject matter
jurisdiction. l
Further, the Court sua sponte finds that Kinney’s notice is also deficient as to defendant TABA.
See Fed. R. Civ. P. 12(b)(1); 12(h)(3); Maria v. Loretta Lynch, No. CV 16-3107-AG (GJS), 2016 WL
4445225, at *3 (C.D. Cal. Aug. 19, 2016) (explaining that courts may raise the issue of subject matter
jurisdiction at any time during the action). As Kinney’s contentions against TAB and TABA are the
same, Kinney’s notice also fails to identify any specific standard, limitation, or order that TABA
allegedly violated. Accordingly, the Court must also dismiss Kinney’s claims against TABA for lack of
subject matter jurisdiction.
IV.

MOTION FOR SECURITY AND CONTROL
A.

Judicial Standard

Local Rule 83-8.1 declares that it is the policy of the Court to “discourage vexatious litigation.”
C.D. Cal. Civ. R. 83-8.1. To effectuate this stated policy, the Local Rules authorize courts in the Central
District of California to “order a party to give security in such amount as the Court determines to be
appropriate to secure the payment of any costs, sanctions, or other amounts which may be awarded
against a vexatious litigant.” C.D. Cal. Civ. L.R. 83-8.2. In addition to the Local Rules, the All Writs
Act vests the Court with inherent power to enter pre-filing orders against vexatious litigants. 28 U.S.C. §
1651.

Because the Court dismisses Kinney’s claims under Rule 12(b)(1), it does not reach TAB’S other arguments.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 3 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 4 of 10 PagelD#:2479

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Date

Case No.

8:17-cv-01693-RGK-JC

Title

Kinney v. Three Arch Bay Community Services District et al.
B.

August 30, 2018

Discussion

Viviani asks the Court to declare Kinney a vexatious litigant, citing a flurry of litigation in state
and federal court initiated by Kinney pertaining to water drainage and flooding near Kinney’s Virginia
Way property. Viviani requests that the Court require Kinney to post security in the amount of $5,000
and enter a pre-filing order prohibiting Kinney from filing future actions in the Central District without
the Court’s preapproval.
A court may impose a pre-filing order only if it: (1) provides the vexatious litigant notice and an
opportunity to be heard, (2) compiles an adequate record of the cases and motions justifying the pre­
filing order, (3) makes substantive findings as to the frivolous or harassing nature of the litigant’s
conduct, and (4) narrowly tailors the pre-filing order to the specific harassing conduct at issue. De Long
v. Hennessey, 912 F.2d 1144, 1147 (9th Cir. 1990). The first two requirements are procedural while the
latter two are substantive considerations that help the court to determine whether a party is a vexatious
litigant and fashion an appropriate remedy to prevent the party’s abusive litigation practices without
unduly restricting the party’s right to access the courts. Ringgold-Lockhart v. Cty. ofL.A., 761 F.3d
1057, 1062 (9th Cir. 2014).
1.

Notice

“Due process requires notice and an opportunity to be heard.” De Long, 912 F.2d at 1147
(citation omitted). Accordingly, a litigant must receive a chance to be heard before a court issues a pre­
filing order, which can be satisfied when the opposing party serves a motion to impose such an order.
Molski v. Evergreen Dynasty Corp., 500 F.3d 1047, 1058 (9th Cir. 2007). Here, Viviani filed a noticed
motion. Kinney received timely notice of the motion and responded with an opposition. {See Pl.’s Opp’n
to Def.s’ Mot. For Payment of Security, ECF No. 13.) The notice requirement is therefore satisfied.
2.

Adequate Record for Review

The district court must create an adequate record for review. To the extent possible, a court
should list all cases, litigation history, and other filings that it relies on to conclude that a party is, in fact,
a vexatious litigant. Ringgold-Lockhart, 761 F.3d at 1063-64; De Long, 912 F.2d at 1147 (“An
adequate record for review should include a listing of all the cases and motions that led the district court
to conclude that a vexatious litigant order was needed.”). The Court provides a synopsis of Kinney’s
vexatious activity below.
As Viviani points out, Kinney has filed at least twelve cases and twenty-five appeals since 2001
on matters related to his real property. In about half of these cases, Kinney sued his neighbors for
matters involving fences and easements near Kinney’s real property on Femwood Avenue in the Silver
Lake neighborhood of Los Angeles (the “Femwood Matter”). See Order Granting Motion to Declare
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 5 of 10 Page ID #:2480

UNITED STATES DISTRICT COURT
CENTRAL.DISTRICT-OF-CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.
: Title

Date

8:17-cv-01693 -RGK-JC

August 30, 2018

Kinney v. Three Arch Bay Community Services District et al.

Charles Kinney a Vexatious Litigant, Kinney v. Cooper, No. 2:15-cv-08910-PSG-JC (C.D. Cal. May 13,
2016), ECF No. 70. In the other half, Kinney sued regarding flooding or pooling of water near his real
property on Virginia Way in Laguna Beach, California. See, e.g., Kinney v. Three Arch Bay Cmty. Servs.
Dist., 8:16-cv-00796-RGK-JC, 2017 WL 2999684 (C.D. Cal. June 15, 2017); Keegan v. Viviani,
G048609, 2015 WL 3633602 (Cal. Ct. App. June 11, 2015) (collecting three cases); Kinney v. Chaldu,
No. G042618, 2010 WL 2746338, at *1 (Cal. Ct. App. July 13, 2010). For his conduct in the Femwood
Matter, courts have declared Kinney a vexatious litigant three times: Once in 2008, in Los Angeles
Superior Court; then in 2011, in the California Court of Appeal; and then in 2016, in the Central District
of California. See Kinney v. Clark, 12 Cal. App. 5th 724, 728-32 (Ct. App. 2017). Additionally, in 2014,
the State Bar of California Review Department disbarred Kinney for his vexatious conduct. See Matter
of Kinney, No. 09-0-18100, 2014 WL 7046611, at *1, *9 (Cal. Bar Ct. Dec. 12, 2014). While these
sanctions pertain to matters other than Kinney’s Virginia Way property at issue here, the Court takes
notice of Kinney’s vexatious activity throughout the state and federal court systems.
In the Virginia Way matter at hand, Kinney began filing complaints as early as 2002, when
Kinney sued Viviani, the Chaldus, the City, and other entities alleging that they impaired the drainage
system on Virginia Way and thereby caused flooding and water pooling. Chaldu, 2010 WL 2746338. In
that case, Kinney alleged state law claims of nuisance and trespass against the defendants. Id. Kinney
filed at least five appeals over the course of the litigation. See Kinney v. City ofLaguna Beach, No.
G041499, 2009 WL 4693266, at *1 (Cal. Ct. App. Dec. 10, 2009); Kinney v. Overton, 153 Cal. App. 4th
482, 497-98 (Ct. App. 2007). Although many of the appeals related to procedural matters, he appears to
have lost on all issues.2 Id. In one instance, a court sanctioned Kinney for appealing a non-appealable
order. See Kinney v. Overton, No. G037708, 2007 WL 2045560, at *1 (Cal. Ct. App. July 18, 2007). In
another instance, the California Court of Appeal allowed the lower court to grant Kinney leave to
amend, but lamented that Kinney’s pleading was “inartful” and “sloppy.” City of Laguna Beach, 2009
WL 4693266, at * 11. Opining that the “frustration” of the trial court was “understandable” and that the
trial court must be “exasperated at this point,” the appellate court explained that Kinney failed in his
pleadings to include all defendants he thought might be liable and failed purposely to pursue causes of
action he knew were possible options. Id. Finally, in 2010, having had enough of Kinney’s dilatory
tactics, the trial court dismissed Kinney’s nuisance and trespass complaint for failure to prosecute.
Chaldu, 2010 WL 2746338, at *3-*4. The Court of Appeal affirmed the dismissal. Id. at *11.
But Kinney was undeterred. In 2010 and 2011, Kinney again filed three separate lawsuits in state
court against TAB, Viviani, and the Chaldus, asserting state law claims of nuisance and trespass, again
arising from drainage problems on Virginia Way.3 Keegan, 2015 WL 3633602 at *1. Once again, the
2 In City ofLaguna Beach, the California Court of Appeal partially reversed the lower court’s judgment against Kinney, but
only on the ground that Kinney might be able to amend his complaint to state a claim. See 2009 WL 4693266, at *12.
3 To be sure, some of these lawsuits were filed by Marian Keegan, not Charles Kinney. However, Kinney served as Keegan’s
lawyer in the lawsuits, and Kinney is known to use other plaintiffs as puppets for the purpose of pursuing frivolous lawsuits.
See Matter ofKinney, 2014 WL 7046611, at *4.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 6 of 10 Page ID #:2481

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Date

Case No.

8:17-cv-01693-RGK-JC

Title

Kinney v. Three Arch Bay Community Services District et al.

August 30, 2018

trial court granted summary judgment to all defendants and disposed of the action. Id. In affirming the
trial court’s holding on appeal, the California Court of Appeal noted in frustration that “[tjhese are the
seventh and eighth appeals arising out of the knock-down drag-out saga engulfing what must surely be a
residential area bereft of neighborly pleasantries.” Id. Kinney then tried to appeal the matter to the
United States Supreme Court, but it declined to grant certiorari. Kinney v. Three Arch Bay Cmty. Servs.
Dist., 136 S. Ct. 1181 (2016). Predictably, Kinney then appealed the trial court’s award of costs to
defendants. Keegan v. Viviani, No. G050032, 2015 WL 4576384, at *4 (Cal. Ct. App. June 11, 2015).
The Court of Appeal affirmed the trial court’s award, and this time sanctioned Kinney for his appeal. Id.
The court noted that the primary arguments in the lawsuit were “utterly absurd” and that the “need to
discourage the conduct of Attorney Kinney, whose bad tactics are well known, [was] great.” Id. In
response, Kinney then filed a motion to strike or tax costs. Exasperated, the California Court of Appeal
denied Kinney’s appeal yet again, opining that the appeal had an “utter lack of merit,” that Kinney
exhibited “continuing shamelessness in the face of irrefutable facts,” and that his lawsuits had, at that
point, “degenerated into what can reasonably be characterized as an attempt by plaintiff Charles Kinney
... to inflict as much pain and expense on his neighbors as he possibly can.” Kinney v. Three Arch Bay
Cmty. Servs. Dist., No. G053727, 2017 WL 6276437, at *1, *3 (Cal. Ct. App. Dec. 11, 2017), reh’g
denied (Jan. 4, 2018), review denied (Feb. 21,2018).
Finding no recourse in state court, Kinney turned to federal court. Instead of alleging claims of
nuisance and trespass, he came up with a new theory: the Clean Water Act. In July 2016, Kinney filed
his first lawsuit in this Court, alleging that TAB, Viviani and the Chaldus violated the Clean Water Act
by discharging pollutants into the Pacific Ocean, again near Kinney’s Virginia Way property. See First
Am. Compl., Kinney v. Three Arch Bay Cmty. Servs. Dist., 8:16-cv-00796-RGK-JC, ECF No. 14. On
June 15, 2017, this Court dismissed the case due to Kinney’s failure to satisfy the notice requirement of
the Clean Water Act. Kinney v. Three Arch Bay Cmty. Servs. Dist., 2017 WL 2999684, at *3 (C.D. Cal.
Jun. 15, 2017). Kinney had argued that his 2011 state court complaint was sufficient to satisfy the notice
requirement, but the Court explained why it was not. See id. at *2-3. Kinney then appealed the Court’s
decision, but the Ninth Circuit affirmed the Court’s ruling, explaining that the Court “properly
determined” that Kinney’s CWA notice was inadequate. Kinney v. Three Arch Bay Cmty. Servs. Dist.,
723 Fed. Appx. 553 (9th Cir. 2018).
After all this, however, Kinney again filed the present action in this Court, this time after sending
a CWA notice to the defendants. Despite knowing at this point who all defendants should have been in
the action, he again failed to include all defendants in his initial complaint. Instead, he opted to add new
defendants piecemeal as the litigation progressed. (See ECF Nos. 32, 87, 88.) But the Court has now
ruled that, yet again, Kinney’s suit against all defendants must be dismissed because his CWA notice
continues to be inadequate.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 7 of 10 PagelD#:2482

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
j Date

Case No.

8:17-cv-01693-RGK-JC

Title

Kinney v. Three Arch Bay Community Services District et al.
3.

August 30, 2018

Substantive Findings ofFrivolousness or Harassment

The third requirement to impose a pre-filing order focuses on the substance of the party’s
litigation history to determine whether the party has engaged in a pattern of frivolous or abusive
lawsuits. Under Local Rule 83-8.4, the Court may, at its discretion, rely on California law to determine
whether a party has engaged in a pattern of activity sufficient to render him a vexatious litigant. See
C.D. Cal. L.R. 83-8.4; Ringgold-Lockhart, 761 F.3d at 1061 n.l; Huggins v. Hynes, 117 Fed. Appx. 517
(9th Cir. 2004). Under California Code of Civil Procedure section 391(b), a party is a “vexatious
litigant” if he does any of the following:
(1) In the immediately preceding seven-year period has commenced,
prosecuted, or maintained in propria persona at least five litigations other
than in a small claims court that have been (i) finally determined adversely
to the person or (ii) unjustifiably permitted to remain pending at least two
years without having been brought to trial or hearing.. ..
(3) In any litigation while acting in propria persona, repeatedly files
unmeritorious motions, pleadings, or other papers, conducts unnecessary
discovery, or engages in other tactics that are frivolous or solely intended
to cause unnecessary delay.
Cal. Code Civ. Proc. § 391(b)(1), (3).
Kinney satisfies the criteria of section (b)(1) of the vexatious litigant statute. A “litigation” under
section (b)(1) includes proceedings in both trial and appellate courts. McComb v. Westwood Park Ass’n,
62 Cal. App 4th 1211, 1216 (Ct. App. 1998). Kinney has “commenced, prosecuted, or maintained” at
least five litigations in the seven year period preceding the filing of this lawsuit that have been finally
determined adversely to him.4 See Cal. Code Civ. Proc. § 391(b)(1). Indeed, the California Court of
Appeal noted in a recent opinion that it was “either the ninth or tenth appeal (we have long lost count).”
4 Those litigations are:
1. Kinney v. Three Arch Bay Cmty. Servs. Dist.—8:16-cv-00796-RGK-JC
2. Kinneyv. Three Arch Bay Cmty. Servs. Dist.—8:17-cv-Ol 693-RGK-JC
3. Kinneyv. Cooper—2:15-cv-08910-PSG-JC
4. Kinneyv. Chomsky—2:14-cv-05895-PSG-MRW
5. Keegan v. Viviani—Court of Appeal No. G048609
6. Keegan v. Viviani—Court of Appeal No. G050032
7. Kinney v. Three Arch Bay Cmty. Servs. Dist.—Court of Appeal No. G053727
8. Kinneyv. Three Arch Bay Cmty. Servs. Dist.—Ninth Cir. No. 17-55899
9. Kinney v. Three Arch Bay Cmty. Servs. Dist.—U.S. Supreme Court No. 15-7297
10. Kinney v. Three Arch Bay Cmty. Servs. Dist.—Orange Cty. Super Ct. Nos. 30-2010-00409507, 30-2011-00529377,
30-2011-00529382
This is only a sampling of Kinney’s vexatious activity; it is not intended to be comprehensive.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 8 of 10 PagelD#:2483

UNITED STATES DISTRICT COURT
CENTRAL-DISTRICT-OF-CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL

r"

Date

! Case No.

8:17-cv-01693-RGK-JC

i Title

Kinney v. Three Arch Bay Community Services District et al.

August 30, 2018

Kinney, 2017 WL 6276437, at *1. Because Kinney has “commenced, prosecuted, or maintained” so
many litigations in the last five years, Kinney is a vexatious litigant under section (b)(1).
Kinney also satisfies the criteria of section (b)(3) of the statute. He repeatedly files
“unmeritorious motions, pleadings, or other papers,” and regularly engages in tactics that are “frivolous
or solely intended to cause unnecessary delay.” Cal. Code Civ. Proc. § 391(b)(3). For example, in this
case alone, Kinney filed a frivolous motion to transfer the case to the Southern Division {See ECF No.
48.), even though the Court already explained in Kinney’s last case that the matter was properly before
this Court. {See Case No. 8:16-cv-00796-RGK-JC, ECF No. 12.) Kinney also filed baseless motions for
reconsideration of the Court’s orders, ignoring the stringent criteria of Local Rule 7-18. (ECF Nos. 52,
74.) And in the prior lawsuit before this Court, Kinney filed a frivolous appeal to the Ninth Circuit; the
Ninth Circuit summarily dismissed the appeal. Kinney, 723 Fed. Appx. 553 (9th Cir. 2018). More
generally, the Court has already described Kinney’s pattern of excessive frivolous lawsuits before other
state and federal courts, sometimes pertaining to the Virginia Way property, and other times pertaining
to other matters. Despite repeatedly failing to prevail in these lawsuits, Kinney persists in filing new
actions and appeals. Kinney engages in other dilatory tactics as well. In his original litigation, for
example, the California Court of Appeal expressed its frustration at Kinney’s repeated failure to include
defendants and allege causes of action. City ofLaguna Beach, 2009 WL 4693266, at * 11. He continues
to engage in the same conduct here, failing to include defendants in his initial pleadings, and failing to
provide adequate notice under the CWA not once, but twice. Kinney is aware of the CWA’s notice
requirement, yet has twice now failed to comply with its demands. The Court therefore finds, as the
California Court of Appeal found, that Kinney’s tactics are purposely and solely intended “to cause
unnecessary delay” and “to inflict as much pain and expense on his neighbors as he possibly can.”
Kinney, 2017 WL 6276437, at *1.
Accordingly, based on Kinney’s satisfaction of the criteria set forth in the California Vexatious
Litigant Statute, the Court concludes that Kinney has engaged in a pattern of frivolous and abusive
actions that satisfies the third DeLong factor.
4.

Breadth of the Order

Lastly, the Court may impose a pre-filing order only if it narrowly tailors the order to the specific
harassing conduct at issue. De Long, 912 F.2d at 1147.
A pre-filing order must be narrowly tailored to the specific abusive practice at issue “to prevent
infringement on the litigator’s right of access to the courts.” De Long, 912 F.2d at 1148 (internal
quotation marks omitted). The Court does not take lightly its inherent power to issue a pre-filing order.
Ringgold-Lockhart, 761 F.3d at 1062 (“In light of the seriousness of restricting litigants’ access to the
courts, pre-filing orders should be a remedy of last resort.”). Kinney is already prohibited from filing in
the Central District any new lawsuits related to the Fernwood Matter without the express written
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 8 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 9 of 10 Page ID #:2484

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
j Date

Case No.

8:17-cv-01693-RGK-JC

Title

Kinney v. Three Arch Bay Community Services District et al.

August 30, 2018

authorization of a judge of this Court. See Order Granting Motion to Declare Charles Kinney a
Vexatious Litigant, Kinney v. Cooper, No. 2:15-cv-08910-PSG-JC (C.D. Cal. May 13, 2016), ECF No.
70. Viviani now asks that Kinney be prohibited from filing suits related to any matter in the Central
District without preapproval, and that the Court enter an order requiring Kinney to post security in the
amount of $5,000.
The Court modifies this request in two ways. First, to comply with the narrow tailoring
requirement, the Court will apply the pre-filing order only to lawsuits against Viviani, the Chaldus,
TAB, TABA, the City of Laguna Beach, and/or the California Department of Transportation relating to
Kinney’s property on Virginia Way. The vexatious activity discussed herein pertains to flooding,
drainage, and pollution near that property, so it is appropriate to tailor the pre-filing order in this manner.
Second, the Court declines to impose a security requirement at this time. The present case has been
dismissed, and the pre-filing order will apply to any future lawsuits. If this or another court within this
district determines that that future complaint is not duplicative, frivolous, or harassing, then Kinney
should be able to proceed with his case.
V.

CONCLUSION

The Court concludes that it has no subject matter jurisdiction over TAB or TABA because
Kinney’s CWA notice is inadequate. Because all of the defendants are now dismissed from this case, the
Court DISMISSES the case for lack of subject matter jurisdiction, and DENIES AS MOOT TAB’s
Motion for Summary Judgment (DE 128). In addition, the Court finds that Kinney is a vexatious litigant
because he has been filing frivolous and harassing litigation against the defendants for many years. See
Cal. Code Civ. Proc. § 391. The Court accordingly GRANTS Viviani’s Motion for Security and Control
(DE 15). The Court imposes the following pre-filing restrictions on Kinney:
•

Charles Kinney and any person acting on his behalf must obtain written authorization
from a Judge of this Court before initiating a new action related to his Virginia Way
property, where the pleading asserts claims against Charles Viviani, John and Lynn
Chaldu, the City of Laguna Beach, the Three Arch Bay Association, the Three Arch Bay
Community Services District, and/or the California Department of Transportation.

•

Asa condition of being allowed to file any such action, Charles Kinney or anyone acting
on his behalf must persuade the Court that the lawsuit is neither frivolous, duplicative,
nor harassing.

IT IS SO ORDERED.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 9 of 10

Case 8:17-cv-01693-RGK-JC Document 146 Filed 08/30/18 Page 10 of 10 PagelD#:2485
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL

!

i Date

Case No.

8:17-cv-01693-RGK-JC

Title

Kinney v. Three Arch Bay Community Services District et al.

Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

August 30, 2018

VRV

Page 10 of 10

